      DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Inspector General

                                                                            Washington, D.C. 20201




July 14, 2010

TO:             Donald Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Analysis of Errors Identified in the Fiscal Year 2009 Comprehensive Error Rate
                Testing Program (A-01-10-01000)


The attached final report provides the results of our analysis of errors identified in the fiscal
year 2009 Comprehensive Error Rate Testing program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through email at
Joe.Green@oig.hhs.gov. Please refer to report number A-01-10-01000 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




ANALYSIS OF ERRORS IDENTIFIED IN
     THE FISCAL YEAR 2009
  COMPREHENSIVE ERROR RATE
       TESTING PROGRAM




                       Daniel R. Levinson
                        Inspector General

                           July 2010
                         A-01-10-01000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) established the Comprehensive Error Rate
Testing (CERT) program to produce a Medicare fee-for-service error rate. An error, or improper
payment, is the difference between the amount that Medicare paid to a health care provider and
the amount that it should have paid. Using the results of the CERT program, CMS annually
submits to Congress an estimate of the amount of improper payments for Medicare fee-for-service
claims pursuant to the Improper Payments Information Act of 2002 (P.L. No. 107-300).

As part of the Medicare error rate process for fiscal year (FY) 2009, CMS’s CERT contractor
conducted medical record reviews of a random sample of paid claims from all types of providers.
The sample consisted of 99,480 claims valued at about $71 million. The CERT contractor found
that 19,754 sampled claims resulted in improper payments valued at about $4.7 million. Based
on these sample results, the national paid claim error rate for FY 2009 was 7.8 percent
($24.1 billion), a significant increase over the FY 2008 error rate of 3.6 percent ($10.4 billion).
According to CMS’s FY 2009 Improper Medicare Fee-for-Service Payments Report, the
increase in the error rate was attributable to substantial changes in the CERT medical record
review methodologies.

OBJECTIVE

Our objective was to analyze the types of providers that caused the majority of FY 2009
improper payments and the most significant types of payment errors made by these providers.

SUMMARY OF FINDINGS

The six types of providers shown in the table below accounted for $4.4 million, or 94 percent, of
the $4.7 million in improper payments identified by the CERT contractor.

                           Improper Payments by Type of Provider
                                                                            Percentage of
                                                             Improper
                      Type of Provider                                        Improper
                                                             Payments
                                                                             Payments
       Inpatient hospitals                                  $1,912,323          40%
       Durable medical equipment suppliers                   1,184,505          25%
       Hospital outpatient departments                         584,840          12%
       Physicians                                              313,469           7%
       Skilled nursing facilities                              260,381           6%
       Home health agencies                                    185,498           4%
              Subtotal                                      $4,441,016          94%
       All other types of providers                            279,416           6%
              Total                                         $4,720,432         100%

The most significant types of payment errors attributable to these six provider groups were
(1) insufficient documentation, e.g., missing clinical notes or test results and missing,

                                                 i
incomplete, or illegible physician orders, which resulted in improper payments totaling
$2.6 million; (2) miscoded claims, which resulted in improper payments totaling $0.9 million;
and (3) medically unnecessary services and supplies, which resulted in improper payments
totaling $0.8 million. These types of payment errors accounted for about 98 percent of the
$4.4 million in improper payments associated with the six types of providers.

RECOMMENDATION

We recommend that, as part of its analysis of the FY 2009 CERT improper payments, CMS use
the results of our analysis in identifying the types of payment errors indicative of programmatic
weaknesses and any additional corrective actions needed to strengthen the CERT program.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendation. CMS added that it
would consider including the type of analysis that we made in its future improper payment
reports. CMS’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
             Medicare Error Rate Program ...........................................................................1
             Medical Review of Claims in the Comprehensive Error Rate Testing
               Program ..........................................................................................................1
             Fiscal Year 2009 Comprehensive Error Rate Testing Results..........................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................2

          INPATIENT HOSPITALS ........................................................................................3
               Medically Unnecessary Services ...................................................................4
               Insufficient Documentation ...........................................................................4
               Miscoded Claims ...........................................................................................5

          DURABLE MEDICAL EQUIPMENT SUPPLIERS................................................5
              Insufficient Documentation ...........................................................................6
              Medically Unnecessary Items and Supplies ..................................................6

          HOSPITAL OUTPATIENT DEPARTMENTS ........................................................7

          PHYSICIANS ............................................................................................................8
               Insufficient Documentation ...........................................................................9
               Miscoded Claims ...........................................................................................9

          SKILLED NURSING FACILITIES ..........................................................................10
               Miscoded Claims ...........................................................................................10
               Insufficient Documentation ...........................................................................11

          HOME HEALTH AGENCIES ..................................................................................11
              Insufficient Documentation ...........................................................................12
              Miscoded Claims ...........................................................................................13
              Medically Unnecessary Services ...................................................................13

          RECOMMENDATION ............................................................................................14

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..............14




                                                                     iii
APPENDIX

    CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                              iv
                                             INTRODUCTION

BACKGROUND

Medicare Error Rate Program

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, established the Comprehensive Error Rate Testing (CERT) program to produce a
Medicare fee-for-service error rate. An error, or improper payment, is the difference between the
amount that Medicare paid to a health care provider and the amount that it should have paid.
Using the results of the CERT program, CMS annually submits to Congress an estimate of the
amount of improper payments for Medicare fee-for-service claims pursuant to the Improper
Payments Information Act of 2002 (P.L. No. 107-300). On February 1, 2010, CMS issued its
fiscal year (FY) 2009 Improper Medicare Fee-for-Service Payments Report.

Medical Reviews of Claims in the Comprehensive Error Rate Testing Program

CMS’s CERT contractor is AdvanceMed, a program safeguard contractor. As part of the
Medicare error rate process for FY 2009, the CERT contractor conducted medical record reviews
of a random sample of paid claims from all types of providers. 1 CMS’s contract requires that the
CERT contractor make medical review decisions in accordance with CMS’s Medicare Program
Integrity Manual, Pub. No. 100-08 (Integrity Manual) and applicable guidance, such as national
coverage determinations (NCD), local coverage determinations (LCD), and CMS coding
manuals. CMS develops NCDs to describe the circumstances for nationwide Medicare coverage
of specific medical services, procedures, and devices. Medicare contractors develop LCDs to
specify the clinical circumstances under which services, procedures, and devices are considered
reasonable and necessary in their jurisdictions.

Fiscal Year 2009 Comprehensive Error Rate Testing Results

For FY 2009, the CERT contractor sampled 99,480 claims valued at about $71 million. The
CERT contractor found that 19,754 sampled claims resulted in improper payments valued at
about $4.7 million.2 Based on these sample results, the national paid claim error rate for
FY 2009 was 7.8 percent ($24.1 billion), a significant increase over the FY 2008 error rate of
3.6 percent ($10.4 billion). According to the FY 2009 Improper Medicare Fee-for-Service
Payments Report, the increase in the error rate was attributable to substantial changes in the
CERT medical record review methodologies.




1
 For FY 2008 and prior years, inpatient hospital claims were reviewed under the Hospital Payment Monitoring
Program, and other Medicare fee-for-service claims were reviewed under the CERT program. For FY 2009, CMS
consolidated the two reviews under the CERT program.
2
 The amount of improper payments is calculated by adding total overpayments to the absolute value of total
underpayments.

                                                        1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to analyze the types of providers that caused the majority of FY 2009
improper payments and the most significant types of payment errors made by these providers.

Scope

Our review covered the 19,754 sampled claims with $4.7 million in improper payments
identified by the CERT contractor during the FY 2009 error rate process.

We limited our review of internal controls to obtaining an understanding of CMS’s written
policies regarding medical reviews.

We performed our fieldwork from November 2009 through February 2010.

Methodology

To accomplish our objective, we:

    • reviewed Medicare requirements regarding medical reviews,

    • reviewed the CERT contractor’s medical review determinations and classifications of
      improper payments, and

    • discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The six types of providers shown in the table on the next page accounted for $4.4 million, or
94 percent, of the $4.7 million in improper payments identified by the CERT contractor.




                                                2
                          Improper Payments by Type of Provider
                                                                           Percentage of
                                                           Improper
                       Type of Provider                                      Improper
                                                           Payments
                                                                            Payments
       Inpatient hospitals                                 $1,912,323          40%
       Durable medical equipment (DME) suppliers            1,184,505          25%
       Hospital outpatient departments                        584,840          12%
       Physicians                                             313,469           7%
       Skilled nursing facilities (SNF)                       260,381           6%
       Home health agencies (HHA)                             185,498           4%
                     Subtotal                              $4,441,016          94%
       All other types of providers                           279,416           6%
                     Total                                 $4,720,432         100%

The most significant types of payment errors attributable to these six types of providers were
(1) insufficient documentation, e.g., missing clinical notes or test results and missing,
incomplete, or illegible physician orders, which resulted in improper payments totaling
$2.6 million; (2) miscoded claims, which resulted in improper payments totaling $0.9 million;
and (3) medically unnecessary services and supplies, which resulted in improper payments
totaling $0.8 million. These types of payment errors accounted for about 98 percent of the
$4.4 million in improper payments associated with the six types of providers.

INPATIENT HOSPITALS

Improper payments totaling more than $1.9 million for 400 inpatient hospital claims accounted
for 40 percent of the $4.7 million in improper payments. As shown in Chart 1, the most
significant types of inpatient hospital payment errors that the CERT contractor found were
medically unnecessary services, insufficient documentation, and miscoded claims.




                                                3
Medically Unnecessary Services

The CERT contractor determined that 123 inpatient claims with improper payments totaling
$718,414 were for medically unnecessary services:

    •   For 119 claims with improper payments totaling $704,394, the services could have been
        performed in a less intensive setting, such as a hospital outpatient department.

    •   For 4 claims with improper payments totaling $14,020, the services were provided only
        so that the beneficiaries could qualify for placement in SNFs.

For example:

        A hospital was paid $2,923 to treat a beneficiary for chest pain as an inpatient.
        According to the CERT contractor, the beneficiary’s condition was relatively
        stable, as evidenced by her normal vital signs and EKG. The CERT contractor
        concluded that the beneficiary could have been treated in the hospital observation
        area as an outpatient and did not require admission to an inpatient hospital. As a
        result, the CERT contractor denied the total payment.

Insufficient Documentation

The CERT contractor determined that for 91 inpatient claims with improper payments totaling
$612,111, the medical records did not include sufficient documentation to make an informed
decision that the services billed were medically necessary. These improper payment
determinations related to missing or incomplete:

    •   physician progress notes, diagnostic test results, and/or discharge summaries for 63
        claims with improper payments totaling $453,227;

    •   results of examinations or treatments and/or emergency room records for 23 claims with
        improper payments totaling $131,799; and

    •   physician orders and other documentation for 5 claims with improper payments totaling
        $27,085.

For example:

        A hospital was paid $10,433 for total hip replacement surgery. The CERT
        contractor concluded that the documentation in the beneficiary’s medical record
        was insufficient to support the need for the surgery. Specifically, the record did
        not contain information on the types of treatment that had been tried before
        surgery, a pathology note to support statements in the record, or a preoperative
        x-ray documenting the extent of osteoarthritis of the hip. As a result, the CERT
        contractor denied the total payment.



                                                 4
Miscoded Claims

The CERT contractor determined that 182 inpatient claims with improper payments totaling
$558,011 included miscoded diagnoses or procedures. Specifically, using the correct diagnosis
or procedure code, the CERT contractor:

   •   reduced the payments for 123 claims by $362,213 and

   •   increased the payments for 59 claims by $195,798.

For example:

       A hospital was paid $17,283 for an excision and debridement procedure. The
       CERT contractor concluded from the documentation in the medical record that
       the hospital performed a less complex surgical procedure than the one coded by
       the hospital. The CERT contractor’s correction of the procedure code reduced the
       payment by $11,237.

DURABLE MEDICAL EQUIPMENT SUPPLIERS

Improper payments totaling almost $1.2 million for 6,874 DME supplier claims accounted for
25 percent of the $4.7 million in improper payments that the CERT contractor identified. As
shown in Chart 2, the most significant types of DME supplier payment errors that the CERT
contractor found were insufficient documentation and medically unnecessary items and supplies.



                         Chart 2: DME Payment Errors
                   1%
                                                  Insufficient Documentation: Missing office or progress
                7%                                notes, details of prior treatments, evidence of beneficiary
                                                  use, and diagnostic test results and missing or incomplete
                                                  physician orders ($1,089,240)*

                                                  Medically Unnecessary Items and Supplies: Physician face-
                                                  to-face examination results that contradicted the need for
                                                  power wheelchairs and other medically unnecessary items
                       92%                        ($77,936)

                                                  Other Errors ($17,330)



                     * Illegible signatures on physician orders accounted for $11,861.




                                                       5
Insufficient Documentation

The CERT contractor determined that for 6,385 DME supplier claims with improper payments
totaling about $1.1 million, the medical records did not include sufficient documentation to make
an informed decision that the items and supplies billed were medically necessary. These
improper payment determinations related to:

    •   missing physician office or progress notes, details of prior treatments, evidence of
        beneficiary use, and/or results of diagnostic tests for 4,531 claims with improper
        payments totaling $761,156;

    •   missing, unsigned, undated, or incomplete physician orders for 1,509 claims with
        improper payments totaling $262,953;

    •   missing or unsigned plans of care for 134 claims with improper payments totaling
        $28,770;

    •   no documentation for 82 claims with improper payments totaling $14,571;

    •   illegible physician orders for 68 claims with improper payments totaling $11,861; and

    •   missing or unsigned certificates of medical necessity (CMN) for 61 claims with improper
        payments totaling $9,929.

For example:

        A DME supplier was paid $1,293 for a power wheelchair. The CERT contractor
        concluded that the documentation in the medical record was insufficient because
        it did not show that the beneficiary was able to transfer to and from the power
        wheelchair and maintain stability while operating the wheelchair in the home.
        The record also did not document that the home had adequate access between
        rooms or that the beneficiary’s weight did not exceed the weight capacity of the
        wheelchair. In addition, the record did not include the results of a required
        physician face-to-face examination. As a result, the CERT contractor denied the
        total payment.

Medically Unnecessary Items and Supplies

The CERT contractor determined that 343 DME supplier claims with improper payments
totaling $77,936 were for medically unnecessary items and supplies:

    •   For 13 claims with improper payments totaling $38,932, physician face-to-face
        examination results contradicted the need for power wheelchairs.

    •   For 113 claims with improper payments totaling $11,951, medical necessity
        requirements in the applicable LCDs were not met.


                                                 6
    •   For 102 claims with improper payments totaling $9,866, the diabetic testing supplies
        dispensed to the beneficiaries exceeded the amounts specified in the physician orders.

    •   For 22 claims with improper payments totaling $2,329, items and supplies were not
        needed, could not be used in the home, or were not used by the beneficiaries.

    •   For 93 claims with improper payments totaling $14,858, items and supplies were
        medically unnecessary for other reasons.

For example:

        A DME supplier was paid $4,483 for a power wheelchair. The CERT contractor
        determined that the physician face-to-face examination results clearly documented
        that the beneficiary had adequate upper extremity strength and no arthritis in the
        upper extremities. Further, the medical record did not indicate that the
        beneficiary was unable to self-propel. As a result, the CERT contractor denied
        the total payment.

HOSPITAL OUTPATIENT DEPARTMENTS

Improper payments totaling $584,840 for 4,810 hospital outpatient department claims accounted
for 12 percent of the $4.7 million in improper payments. As shown in Chart 3, the most
significant type of hospital outpatient department payment error that the CERT contractor found
was insufficient documentation.


                 Chart 3: Hospital Outpatient Department
                             Payment Errors
                                                          Insufficient Documentation: Missing, unsigned, or
                     9%                                   undated physician orders ($272,709)
               8%
                                                          Insufficient Documentation: Missing physician
                                                          evaluations or notes, clinician notes, and diagnostic
                                       47%                or therapeutic test results ($213,622)

                                                          Insufficient Documentation: Illegible signatures or
                                                          dates on physician orders or no documentation
             36%                                          ($47,947)*

                                                          Other Errors ($50,562)


                            * Illegible signatures on physician orders accounted for $19,069.



The CERT contractor determined that for 4,040 hospital outpatient department claims with
improper payments totaling $534,278, the medical records did not include sufficient


                                                      7
documentation to make an informed decision that the services billed were medically necessary.
These improper payment determinations related to:

   •   missing, unsigned, or undated physician orders for 3,041 claims with improper payments
       totaling $272,709;

   •   missing physician evaluations, physician notes, clinician notes, and/or diagnostic or
       therapeutic test results for 843 claims with improper payments totaling $213,622;

   •   no documentation for 36 claims with improper payments totaling $28,878; and

   •   illegible signatures or dates on physician orders for 120 claims with improper payments
       totaling $19,069.

For example:

       A hospital was paid $127 for an ultrasound. The documentation in the medical
       record included a requisition, detailed bill, and test results. The CERT contractor
       concluded that the documentation was insufficient because it did not include a
       physician order for the test. As a result, the CERT contractor denied the total
       payment.

PHYSICIANS

Improper payments totaling $313,469 for 4,440 physician claims accounted for 7 percent of the
$4.7 million in improper payments. As shown in Chart 4, the most significant types of physician
payment errors that the CERT contractor found were insufficient documentation and miscoded
claims.


                      Chart 4: Physician Payment Errors

                        6%                                Insufficient Documentation: Missing or incomplete
                                                          physician orders, office or progress notes, and
                                                          diagnostic or therapeutic test results ($185,081)*


            35%                                           Miscoded Claims: Incorrect procedure codes
                                                          ($108,329)

                                         59%
                                                          Other Errors ($20,059)



                           * Illegible signatures on physician orders accounted for $7,435.


                                                      8
Insufficient Documentation

The CERT contractor determined that for 2,005 physician claims with improper payments
totaling $185,081, the medical records did not include sufficient documentation to make an
informed decision that the services billed were medically necessary. These improper payment
determinations related to:

   •   missing physician office or progress notes and/or results of diagnostic or therapeutic tests
       for 1,331 claims with improper payments totaling $132,019;

   •   missing, incomplete, unsigned, or undated physician orders for 482 claims with improper
       payments totaling $36,607;

   •   illegible physician orders for 69 claims with improper payments totaling $7,435;

   •   no documentation or no documentation for the specific dates of service for 83 claims with
       improper payments totaling $6,934; and

   •   missing or unsigned plans of care or CMNs for 40 claims with improper payments
       totaling $2,086.

For example:

       A physician was paid $189 for an office consultation and a urinalysis. The CERT
       contractor concluded that the documentation in the medical record was
       insufficient because it did not include office consultation notes. As a result, the
       CERT contractor denied the total payment.

Miscoded Claims

The CERT contractor determined that 2,207 physician claims with improper payments totaling
$108,329 contained incorrect procedure codes.

   •   Incorrect coding of evaluation and management services resulted in 1,333 overpayments
       totaling $56,624 and 180 underpayments totaling $5,315.

   •   Incorrect coding of other types of physician procedures resulted in 637 overpayments
       totaling $44,904 and 57 underpayments totaling $1,486.

For example:

       A physician was paid $50 for an evaluation and management service. The CERT
       contractor concluded that the documentation in the medical record supported a
       straightforward (minimal) level of medical decisionmaking rather than a low-
       complexity level of medical decisionmaking. The CERT contractor’s correction
       of the procedure code reduced the payment by $20.

                                                9
SKILLED NURSING FACILITIES

Improper payments totaling $260,381 for 248 SNF claims accounted for 6 percent of the
$4.7 million in improper payments. As shown in Chart 5, the most significant types of SNF
payment errors that the CERT contractor found were miscoded claims and insufficient
documentation.




Miscoded Claims

The CERT contractor determined that 147 SNF claims with improper payments totaling
$136,937 included miscoded stays, resulting in 127 overpayments totaling $125,947 and 20
underpayments totaling $10,990. These improper payment determinations related to:

   •   billing a higher payment code than was supported by documentation, which included late
       patient assessments, for 24 claims with overpayments totaling $38,254;

   •   billing for the administration of intravenous medications that was not supported by
       documentation for 35 claims with overpayments totaling $33,285 and not billing for the
       administration of intravenous medications that was supported by documentation for
       6 claims with underpayments totaling $2,508;

   •   billing for therapy minutes that were not supported by documentation for 41 claims with
       overpayments totaling $26,746 and not billing for therapy minutes that were supported by
       documentation for 11 claims with underpayments totaling $6,575; and

   •   making other coding errors on 27 claims with overpayments totaling $27,662 and on
       3 claims with underpayments totaling $1,907.


                                              10
For example:

        A SNF was paid $5,727 for an 11-day episode. The CERT contractor concluded
        from the documentation in the medical record that the SNF provided less therapy
        than the amount coded by the SNF and that the record did not specify the time
        spent in therapy versus therapy evaluation. The CERT contractor’s correction of
        the procedure code reduced the payment by $1,309.

Insufficient Documentation

The CERT contractor determined that for 85 SNF claims with improper payments totaling
$101,465, the medical records did not include sufficient documentation to make an informed
decision that the services billed were medically necessary. These improper payment
determinations related to:

    •   missing physician, nurse, and/or therapist notes, results of diagnostic and therapeutic
        tests, and treatment records for 63 claims with improper payments totaling $78,983;

    •   missing physician orders for 19 claims with improper payments totaling $19,633; and

    •   illegible signatures and/or dates on physician orders for 3 claims with improper
        payments totaling $2,849.

For example:

        A SNF was paid $1,138 for a 1-month episode that included daily physical
        therapy treatments. The CERT contractor found that the documentation in the
        medical record did not include daily physical therapy treatment records to support
        the exercises and treatments performed, the modalities used, or the units of
        service billed. As a result, the CERT contractor denied the total payment.

HOME HEALTH AGENCIES

Improper payments totaling $185,498 for 193 HHA claims accounted for 4 percent of the
$4.7 million in improper payments. As shown in Chart 6 on the next page, the most significant
types of HHA payment errors that the CERT contractor found were insufficient documentation,
miscoded claims, and medically unnecessary services.




                                                11
                          Chart 6: HHA Payment Errors
                          2%
                                                            Insufficient Documentation: Missing or incomplete
                                                            physician orders, nurse notes, therapist notes, and
                                                            patient assessments ($74,666)*

                26%                                         Miscoded Claims: Incorrectly coded episodes of care
                                    40%                     ($58,574)


                                                            Medically Unnecessary Services: Skilled nursing not
                                                            needed ($48,740)
                    32%
                                                            Other Errors ($3,518)

                          * Illegible signatures on physician orders accounted for $2,310.



Insufficient Documentation

The CERT contractor determined that for 36 HHA claims with improper payments totaling
$74,666, the medical records did not include sufficient documentation to make an informed
decision that the services billed were medically necessary. These improper payment
determinations related to:

    •   missing nurse notes, therapist notes, and/or patient assessments for 22 claims with
        improper payments totaling $43,353;

    •   missing, unsigned, or undated physician orders for 10 claims with improper payments
        totaling $26,085;

    •   no signed plan of care for 1 claim with an improper payment of $2,918; and

    •   illegible physician orders for 3 claims with improper payments totaling $2,310.

For example:

        An HHA was paid $2,052 for one home health episode. The CERT contractor
        concluded that the documentation in the medical record was insufficient to
        determine medical necessity because the record did not include physician orders,
        a plan of care, home health aide notes, or an assessment document. The record
        also did not include nursing notes for any date in the billed period. As a result,
        the CERT contractor denied the total payment.




                                                       12
Miscoded Claims

The CERT contractor determined that 122 HHA claims with improper payments totaling
$58,574 included miscoded episodes of care, resulting in 72 overpayments totaling $30,669 and
50 underpayments totaling $27,905. These improper payment determinations related to:

   •   billing for more therapy visits than were supported by documentation for 28 claims with
       overpayments totaling $17,704 and fewer therapy visits than were supported by
       documentation for 8 claims with underpayments totaling $7,986;

   •   billing 21 claims with overpayments totaling $5,929 and 20 claims with underpayments
       totaling $6,112 because of claim-processing errors;

   •   using incorrect episode dates on 12 claims with overpayments totaling $3,759 and on
       12 other claims with underpayments totaling $6,829; and

   •   making other coding errors on 21 claims with improper payments totaling $10,255.

For example:

       An HHA was paid $4,053 for 1 home health episode based on 11 physical therapy
       visits billed. The CERT contractor concluded that the claim was incorrectly
       coded because the documentation in the medical record showed that only 10
       physical therapy visits were provided. The CERT contractor’s correction of the
       procedure code reduced the payment by $421.

Medically Unnecessary Services

The CERT contractor determined that 28 HHA claims with improper payments totaling $48,740
were for medically unnecessary services:

   •   For 23 claims with improper payments totaling $38,402, the beneficiaries did not require
       skilled nursing services.

   •   For five claims with improper payments totaling $10,338, the beneficiaries were not
       homebound.

For example:

       An HHA was paid $2,468 for one home health episode. The CERT contractor
       concluded that the documentation in the medical record did not support the need
       for skilled nursing because the record did not show a change in the beneficiary’s
       condition or treatment. The record also did not show complications related to the
       beneficiary’s longstanding diagnosis of diabetes and indicated that the
       beneficiary’s blood glucose levels were controlled. As a result, the CERT
       contractor denied the total payment.

                                              13
RECOMMENDATION

We recommend that, as part of its analysis of the FY 2009 CERT improper payments, CMS use
the results of our analysis in identifying the types of payment errors indicative of programmatic
weaknesses and any additional corrective actions needed to strengthen the CERT program.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendation. CMS added that it
would consider including the type of analysis that we made in its future improper payment
reports. CMS’s comments are included in their entirety as the Appendix.




                                                14
APPENDIX
      APPENDIX: CENTERS FOR IvlEDICARE & IvlEDICAID SERVICES COMMENTS
                                                              Page 1 of2
   DEPARTMENT OF HEALTH & HUMAN SERVICES                  Centers for Medicare & Medicaid Services


                                                                            Administrator
                                                                            Washington, DC 20201




DATE:           JUN - 1 2010

TO:            Daniel R. Levinson
               Inspector General

FROM:          Marilyn Tavenner
               Acting Administrator and Chief Operating Officer

SUBJECT:       Office of Inspector General (OIG) Draft Report "Analysis of Errors Identified in
               the Fiscal Year 2009 Comprehensive Error Rate Testing (CERT) Program" (A­
               01-10-01000).


Thank you for the opportunity to comment on the subject OIG draft report regarding the analysis
of improper payments identified during the Comprehensive Error Rate Testing (CERT) program
reviews in 2009. We appreciate the ~IG's review of the errors identified during the 2009 CERT
process. CMS developed the CERT program to produce a national paid claims error rate for the
entire Medicare fee-for-service program and to comply with the Improper Payments Information
Act (IPIA) of 2002.

CMS appreciates the efforts and recommendations provided by the OIG - and uses those
recommendations to help the CERT process. Based on these recommendations, CMS has taken
aggressive actions to reflect a more complete accounting of Medicare's improper payments and
provide the Agency and the OIG with more complete information about errors so the Agency can
better target improper payments.

An integral part of the CERT process is the analysis of error rate data and development of error
rate reduction plans to reduce improper payments and maintain the fiscal integrity of the
Medicare program. The ~IG's additional analysis demonstrates the utility of using CERT
findings to focus on the types of providers that cause the majority of improper payments and the
types of payment errors made by these providers to better focus corrective actions as we move
forward.

We appreciate the ~IG's work in this area and look forward to working with them as we
continue to enhance the CERT process. Our response to the ~IG's recommendation is below.

OIG Recommendation

We recommend that, as part of its analysis of the FY 2009 CERT improper payments, CMS use
the results of our analysis in identifYing the types of payment errors indicative of programmatic
weaknesses and any additional corrective actions needed to strengthen the CERT program.
                                                                               Page 2 of2
Page 2 - Daniel R. Levinson



eMS Response

CMS concurs and will share this report with our contractors as a source of information. Also, we
will consider including this type of analysis in future improper payment reports. We note,
however, that because of the programming required to produce this type of detailed analysis, it
cannot be done for the 2010 report, but we will include similar analysis in the 2011 report.

In addition, CMS will work internally to consider ways to incorporate this type of detailed
information into future Medicare fee-for-service contractor educational efforts.
